                                                               ig
                                         October 2007 Semiannual Report




TABLE OF CONTENTS

THE OFFICE OF INSPECTOR GENERAL .........................................................................1

COMMISSION’S TOP MANAGEMENT CHALLENGES..................................................3
Management Challenge: Strategic Management of Human Capital..................................... 3
Management Challenge: Budget and Performance Integration. ........................................... 4
Management Challenge: Improved Financial Performance. ................................................ 5
Management Challenge: Information Technology Security................................................. 5

COMMISSION PROFILE......................................................................................................7

AUDITS ................................................................................................................................9
Reports Issued During this Period ........................................................................................ 9
Summary of Significant Audits ............................................................................................ 9
On-Going Audits................................................................................................................. 12
Audit Follow–Up ................................................................................................................ 12

INVESTIGATIONS .............................................................................................................13
Summary of Investigative Activity.......................................................................................13

OTHER ACTIVITIES ..........................................................................................................14
Legislative Review.............................................................................................................. 14
Directives Review............................................................................................................... 14
Government Accountability Office (GAO) ........................................................................ 14
Management Assistance...................................................................................................... 15
Other ................................................................................................................................... 16
Liaison Activities ................................................................................................................ 16

REPORTING REQUIREMENTS INDEX...........................................................................18
Table 1: AUDIT REPORTS WITH QUESTIONED COSTS .............................................19
Table 2: AUDIT REPORTS WITH RECOMMENDATIONS THAT FUNDS
         BE PUT TO BETTER USE .................................................................................20

GLOSSARY .........................................................................................................................21




                                                                   i
                                          ig
                            October 2007 Semiannual Report




              THE OFFICE OF INSPECTOR GENERAL
The Commission established the Office of Inspector General (OIG) pursuant to the 1988
amendments to the Inspector General Act. The OIG is headed by an Inspector General (IG),
who reports directly to the Chairman and Congress. As set forth in the IG Act, as amended,
the IG has the authority and responsibility to conduct objective and independent audits,
reviews and investigations of the agency’s programs and operations. Specifically, the IG is
responsible for promoting economy, efficiency, and effectiveness within the Commission;
preventing and detecting fraud, waste, abuse and mismanagement in the Commission’s
programs and operations; providing comments and recommendations on proposed
legislation, regulations and procedures affecting the Commission; and keeping the Chairman
and the Congress fully and currently informed of problems in agency programs and
operations.

As shown in the organizational chart, the OIG was allocated four staff years in fiscal year
2007 (October 1, 2006- September 30, 2007, “FY 2007”). Since 2005, two positions have
been vacant and have not been filled. The Inspector General retired on October 31, 2005 and
the Paralegal Specialist left the Commission on November 27, 2005. For the past two years,
the Assistant Inspector General for Audit and Counsel have been performing the necessary
duties to meet the requirements of the Inspector General Act. Towards the end of this
reporting period, the Assistant Inspector General for Audit was appointed Acting Inspector
General.*


                  Office of Inspector General: Organization
 Full-time
     Acting Inspector
     General*



                                                                              Part-time
    Assistant Inspector            Paralegal Specialist               Counsel to the
    General for Audit*                   Vacant                     Inspector General




                                             1
                                   ig
                      October 2007 Semiannual Report




                          OIG Points of Contact

Phone          202-205-2210                       Hotline:
Fax            202-205-1859                       1-800-500-0333
OIG internet   www.usitc.gov/oig                  OIGHotline@usitc.gov




                                     2
                                            ig
                              October 2007 Semiannual Report




     COMMISSION’S TOP MANAGEMENT CHALLENGES
The “Top Management Challenges” facing the Commission as identified by the OIG are
discussed below. Our assessment is based on information from several sources, including
OIG audit and inspection work, a general knowledge of the Commission’s programs and
activities, and input from management to obtain their views on what challenges the agency is
facing and what efforts the agency has taken to address the challenges.

The OIG believes the major management challenges, in order of priority, facing the
Commission are:


Management Challenge: Strategic Management of Human Capital.
This initiative is for agencies to strategically align human resources to support the
organization’s policy and program goals.

The Commission’s ability to successfully execute activities in support of its mission depends
on a highly skilled and experienced workforce. However, the Commission continues to be
challenged by an extremely high vacancy rate. At the end of September 2007, the
Commission had a 14 percent vacancy rate. Furthermore, a significant percentage of its
workforce is reaching retirement eligibility at a time when there is an increase in work. The
increased work includes Title VII investigations (antidumping and countervailing duties
under the Tariff Act of 1930) and Section 337 investigations (alleged intellectual property
infringement and other unfair acts under 19 U.S.C. Section 1337).

The Commission developed a Strategic Human Capital Management Plan intended to be an
essential component of the organization’s strategic planning. This plan identified actions
needed to accomplish the following goals:

1. Create and sustain an organizational culture that supports and rewards high performance.
2. Attract and retain a high-performing workforce with the technical and professional skills
   needed.
3. Continuously develop workforce skills in line with changing Commission requirements.
4. Allocate human resources across organizational components to efficiently respond to
   changing workload requirements.




                                               3
                                            ig
                              October 2007 Semiannual Report




The Commission established a new performance management system, which it considers to
be the first step in implementing a pay for performance system. During FY 2007, the
Commission began a pilot program of the system with volunteers from the Offices of
Operations and Administration. Using information from the pilot program, the Commission
plans to address needs not previously considered, such as developing standards and elements
for unanticipated occupational groups and ad hoc team leader positions.

For senior level employees, the Commission plans to develop a program to obtain
certification of a Senior Executive Service (SES) performance appraisal system. As directed
by the Office of Personnel Management, “the performance expectations for individual senior
employees should (1) reflect expected agency and/or organizational outcomes and outputs,
performance targets or metrics, policy/program objectives, and/or milestones; (2) identify
specific programmatic crosscutting, external, and partnership-oriented goals or objectives, as
applicable; and (3) be stated in terms of observable, measurable, and/or demonstrable
performance.”

To attract, retain and continually develop personnel, the Commission implemented several
initiatives. The Commission offered re-location expenses, retention bonuses, reimbursement
of student loans, professional development and training, and telecommuting to its employees.
Approximately 80 percent of Commission staff participated in the telecommuting program.
Also, in response to the changes in the Commission’s workload and large vacancy rate, the
Director of the Office of Operations has provided cross-training to employees.

Finally, the Office of Human Resources has been working to improve communications
within the agency. The office delivered briefings on the new performance management
system to managers and staff in the pilot program. Also, the office intends to keep
Commission staff informed on the planned transfer of paper official personnel files to
electronic format.


Management Challenge: Budget and Performance Integration.
This initiative is to ensure each program’s purpose is clear, well designed to achieve its
objectives, and effectively managed to provide the best value for taxpayers. Performance
information will be used to (1) end or reform programs that either cannot demonstrate
positive results or are clearly failing and (2) put resources in programs that can prove they are
successful.




                                               4
                                             ig
                              October 2007 Semiannual Report




The Commission’s efforts to link budgeting with strategic planning have allowed
Commission managers to more effectively compare changes in workload with changes in
cost. Budget formulation and execution activities permit the allocation of virtually all costs to
one of the five operations set forth in the Strategic Plan. Since personnel costs are 75 percent
of total costs, the Commission uses the labor cost reporting system to collect work years and
cost information and attribute it directly to strategic operations when feasible. Each month a
labor/cost report is distributed to managers for their review of the office profile. Also, the
Commission’s Labor Cost Committee meets monthly to review this report.

The labor/cost report was an especially valuable management tool in FY 2007 because of
funding reductions. The Commission received $62,361,000 in FY 2007, which was less than
the requested funding of $64,200,000. To meet costs, the Commission: relied on a significant
increase in retirements; delayed recruitment and hiring which resulted in a 14 percent
vacancy rate; and increased internal flexibility among staff to meet certain staffing
requirements. As a result of funding decreases, the Commission was unable to implement its
human capital and information technology (IT) plans as intended.

As an additional step towards budget and performance integration, the Commission
developed an IT Strategic Plan whereby an IT proposal must go through a detailed business
process to ensure resources for IT investments are efficiently used.


Management Challenge: Improved Financial Performance.
This initiative is to improve the quality and timeliness of financial information so that it can
be used to reduce waste, fraud, and abuse and manage federal programs more effectively.

During this reporting period, the OIG is in the process of auditing the Commission’s 2007
and 2006 financial statements. Based on the results to date, we anticipate issuing an
unqualified opinion along with recommendations to strengthen internal controls over
procurement, property and cash.


Management Challenge: Information Technology Security.
The President’s Management Agenda includes an initiative to expanded electronic
government, which is designed to bring more services to the American citizen over the
Internet, make government more efficient, and improve IT management throughout the
Executive Branch.



                                                5
                                           ig
                             October 2007 Semiannual Report




Based on findings from past OIG Federal Information Security Management Act (FISMA)
audits, the Commission needs to strengthen its IT security program. During the past year, the
Commission made progress towards this challenge. The OIG’s 2007 FISMA audit found that
the Commission fully implemented 2 of 12 recommendations from the prior year’s audit.
Also, the Commission completed three major IT security projects which included: building a
National Security Information network, establishing a Public Key Infrastructure connection
with the Government Printing Office for the transmittal of sensitive information, and creating
an incident response policy that addresses loss of personally identifiable information.

While the above efforts are commendable, ten recommendations from the prior year’s
FISMA audit remained open, and this year’s audit found new weaknesses relating to the
administration of Plans of Action and Milestones; annual security controls testing and
evaluating; security awareness training for new employees and contractors; and
implementation of minimum security controls required by NIST Special Publication 800-53,
Recommended Security Controls for Federal Information Systems.

In response to the OIG’s FISMA report, the Chairman stated, “The Commission agreed it
could do a better job of generating documentation to support compliance with FISMA
requirements, maintenance and reporting of the Commission's plan of action and milestones.
However, like many other areas of the Commission, the information security program was
not fully funded in FY 2007. Thus, full compliance with all FISMA requirements was not
reasonably achievable, especially those requirements that require the generation of extensive
documentation.”




                                              6
                                            ig
                             October 2007 Semiannual Report




                            COMMISSION PROFILE
                                     http://www.usitc.gov


The Commission is an independent, nonpartisan, quasi–judicial federal agency established to
provide trade expertise to both the Legislative and Executive Branches of government. Its
mission is to: administer U.S. trade remedy laws within its mandate in a fair and objective
manner; provide the President, the U.S. Trade Representative (USTR) and the Congress with
independent, quality analysis, information, and support on matters of tariffs and international
trade and competitiveness; and maintain the Harmonized Tariff Schedule of the U.S. In so
doing, the Commission serves the public by implementing U.S. law and contributing to the
development of sound and informed U.S. trade policy. Major Commission activities include:

       •   Import Injury Investigations—The Commission makes determinations in a variety
           of import injury investigations, primarily antidumping and countervailing duty
           (AD/CVD) investigations concerning the effects of unfairly traded imports on a
           U.S. industry.
       •   Intellectual Property–Based Investigations—The Commission adjudicates
           complaints brought by domestic industries under 19 U.S.C. Section 1337 that allege
           infringement of U.S. intellectual property rights and other unfair methods of
           competition by imported goods.
       •   Industry and Economic Analysis—The Commission’s industry and economic
           analysis program consists of probable economic effects investigations under
           section 131 of the Trade Act of 1974 or section 2104 of the Trade Act of 2002;
           analysis of trade and competitiveness issues under section 332 of the Tariff Act of
           1930; and independent assessments on a wide range of emerging trade issues.
       •   Trade Information Services—The Commission’s trade information services
           include such activities as legislative reports; maintenance of the Harmonized
           Tariff Schedule; Schedule XX; U.S. Schedule of Services Commitments under the
           General Agreement on Tariffs and Trade/World Trade Organization; preparation
           of U.S. submissions to the Integrated Database of the World Trade Organization;
           and certain other information gathering, processing, and dissemination activities.




                                              7
                                           ig
                             October 2007 Semiannual Report




       •   Trade Policy Support—The Commission supports the formulation of U.S. trade
           policy, providing objective input to both the Executive Branch and the Congress
           on the basis of the distinctive expertise of its staff.

The Commission consists of six Commissioners, appointed by the President and confirmed
by the Senate, who serve one term of nine years, unless appointed to fill an unexpired term.
No more than three Commissioners may be of the same political party. The Chairman and
Vice Chairman are designated by the President and serve a 2–year statutory term. The
Chairman is responsible, within statutory limits, for the administrative functions of the
Commission.

There are six Commissioners. The Chairman is Daniel R. Pearson and the Vice Chairman is
Shara L. Aranoff. The other Commissioners are Deanna Tanner Okun, Charlotte R. Lane,
Irving A. Williamson, and Dean A. Pinkert.

For FY 2007, the Commission’s funds in the operating expenditure plan totaled $63,519,000.
The FY 2007 staffing plan was for 398 permanent positions and 13 term/temporary positions
for a total of 411 positions. As of September 2007, the Commission had 347 employees and a
14 percent vacancy rate. All employees are located in one building at 500 E Street, SW,
Washington, DC.




                                              8
                                           ig
                             October 2007 Semiannual Report




                                        AUDITS

Reports Issued During this Period

The OIG issued two audit reports during this period:

•   Management letter: Audit of the U.S. International Trade Commission’s Financial
    Statements for Fiscal Years 2006 and 2005 (OIG-AR-02-07, May 16, 2007)
    http://www.usitc.gov/oig/ OIG-AR-02-07.pdf

•   Evaluation of the U.S. International Trade Commission’s Fiscal Year 2006 Network
    Security Controls (OIG-AR-03-07, June 5, 2007)
    http://www.usitc.gov/oig/ OIG-AR-03-07.pdf


Summary of Significant Audits

Management letter: Audit of the U.S. International Trade Commission’s Financial
Statements for Fiscal Years 2006 and 2005 (OIG-AR-02-07, May 16, 2007)

In connection with our audit of the Commission’s financial statements for FYs 2006 and
2005, we issued a management letter that identified issues not required to be included in the
financial statements report. We found the Commission needs to: strengthen controls and
oversight of procurement activity; issue guidance for controlling fixed assets and accountable
property; improve procedures for depositing funds; and issue guidance on taxing employee
awards.

We made five recommendations to correct the identified deficiencies. Specifically, the
Commission should:

1. Formally remind Cost Center Managers (CCM) of their financial responsibility to ensure
   procurements are properly recorded and do not exceed the allowable limit. The reminder
   should also direct CCMs to identify any employee who may be in need of more training
   on processing all types of procurement activity and make the training available to the
   employee.


                                              9
                                           ig
                            October 2007 Semiannual Report




2. Issue procedures requiring CCMs to verify that their requested action was accurately
   entered into the Commission’s procurement records by reviewing the Procurement
   Requisition Log for items posted in Procurement Information System for Management
   (PRISM) and the Blanket Purchase Agreement (BPA) Database. Each CCM should be
   required to: (1) perform a monthly reconciliation of PRISM and BPA Database with the
   monthly accounting reports to ensure transactions are accurately obligated and (2)
   provide the results of the reconciliation to the Office of Finance.

3. Ensure an Administrative Notice is issued which provides guidance for controlling fixed
   assets and accountable property. This guidance should clarify procedures and assign
   responsibilities for controlling all types of assets. The guidance should also:

                  •   Address the responsibilities associated with the operation of the ADP
                      inventory database; and

                  •   Include a requirement to perform an inventory of fixed assets on a
                      quarterly basis in sufficient time to ensure the fixed assets reported on
                      the quarterly statements are accurate. Also, the fixed assets inventory
                      list should be shared with the information technology staff to ensure
                      they are aware of what items are fixed assets for their proper
                      completion of the forms when transferring a fixed asset.

4. Ensure the alternate people who serve as back-up to the primary person responsible for
   depositing funds are properly trained to make the deposits. Also, procedures should be
   developed to ensure the alternates are aware when their services are needed.

5. Issue formal procedures for processing and controlling employee awards to ensure proper
   tax treatment. These procedures should be made available to all Commission employees
   to provide notice of the awards and the applicable taxes.

Although the Commission did not fully agree with all five recommendations, the OIG
considered all recommendations appropriate. Recommendations non-concurred to by the
Commission are discussed below.

The Commission believed its controls and oversight over procurement activity were adequate
(see recommendations 1 and 2 above). The Commission relied on regular discussions with
office directors on procurement activity and on regular reconciliations which take place


                                             10
                                            ig
                              October 2007 Semiannual Report




on the Offices of Facilities Management, CIO and Administration Director cost centers for
timely and accurate processing. However, this audit found not all procurements were
accurately posted in the Commission’s official records or timely obligated. While we support
the Commission’s reconciliation of procurement activity, further action is needed. For
example, review of the May 2006 reconciliation found transactions going back to October
that required investigation. Finally, the Commission continued to have a problem with
individuals exceeding the authorized limit on blanket purchase agreements.

The Commission further believed it had adequate procedures for controlling fixed assets and
accountable property (see recommendation 3 above). The Commission did state, however,
that it will monitor all items and update the inventory list as often as possible and it will
perform a full annual review. Also, the Commission will ensure that quarterly inventories of
fixed assets (any single item valued at $50,000 or more at time of purchase) are conducted.
The OIG acknowledged that the actions listed by the Commission are positive efforts.
However, since the Commission has had inaccurate ADP inventory records for the last four
audits and this year’s audit found an error rate of nine percent, revised guidelines should
strengthen controls.

Evaluation of the U.S. International Trade Commission’s Fiscal Year 2006 Network
Security Controls (OIG-AR-03-07, June 5, 2007)

The OIG conducted an audit to determined whether the Commission implemented corrective
actions in regards to technical security issues identified in Evaluation of the U.S.
International Trade Commission’s Fiscal Year 2005 Information Security Program and
Practices (OIG-AR-04-05, September 27, 2005).

We found the Commission made progress in strengthening its network security controls
during Fiscal Year 2006, but further action is needed. The OIG made four recommendations
that will assist the Commission in strengthening its network security. The Commission
agreed with the recommendations and has planned and initiated actions to address the
recommendations.

Due to the sensitive content of this audit, we have limited distribution of further information.




                                              11
                                           ig
                             October 2007 Semiannual Report




On-Going Audits

During this reporting period, we are in the process of completing the following two audits:

•   Evaluation of the U.S. International Trade Commission’s Fiscal Year 2007
    Information Security Program and Practices

    We concluded our work on the annual Federal Information Security Management Act
    (FISMA) audit. An Independent Public Accountant (IPA), working under our
    supervision, performed an audit of the Commission's information security program and
    practices to determine if the Commission: (1) implemented appropriate actions to address
    previously made recommendations; and (2) met FISMA criteria.

    At the end of this reporting period, we were in the process of incorporating
    management’s response to the report and will issue the final report October 1, 2007.

•   USITC's Financial Statements for Fiscal Years 2007 and 2006 and the Commission's
    Management Challenges

    An Independent Public Accountant (IPA), working under our supervision, is performing
    an audit of the Commission's fiscal years 2007 and 2006 financial statements. The results
    of this audit will be reported in November 2007.



Audit Follow–Up

No pending recommended actions remain open.




                                             12
                                          ig
                            October 2007 Semiannual Report




                               INVESTIGATIONS
The OIG investigates possible violations of laws, rules, and regulations, mismanagement,
abuse of authority, and waste of funds. These investigations may result either from our own
audit, inspection and other work or in response to allegations, complaints, and information
received from employees, other government agencies, contractors, and other concerned
individuals. The objective of this program is to ensure the integrity of the Commission and
assure individuals fair, impartial, and independent investigations.



                        Summary of Investigative Activity

At the beginning of this reporting period, one case was open. During the period, two cases
were initiated and closed. Therefore, one case remains open. A summary of investigative
activity is presented below.


 Case Workload                   Referrals                   Investigative Results
                                 Processed


                            Received from
 Open (04/01/07)    1                             0       Referrals for Prosecution     0
                            Hotline
                            Referred to OIG
                                                          Referrals Declined for
 Initiated          2       Audit & Inspection    0                                     0
                                                          Prosecution
                            Division
                            Referred to
 Closed             2                             1       Administrative Action         1
                            Commission
                            Referred to other
 Open (09/30/07)    1                             0
                            Federal Agencies
                            Evaluated but No
                            Investigation         0
                            Initiated




                                             13
                                           ig
                             October 2007 Semiannual Report




                               OTHER ACTIVITIES
Legislative Review

During this reporting period, the OIG reviewed and commented on H.R. 928 and S. 1723,
which contain amendments to the Inspector General Act.



Directives Review

Performance Management System Directive

During this reporting period, the Commission distributed a revised draft Performance
Management System directive to the OIG for review and comment. The OIG’s review of the
draft Performance Management System directive raised concerns that it contained provisions
that affected OIG independence. The Inspector General Act created the OIG as an
independent unit to their respective agency. The OIG provided applicable provisions of the
law and recommended revisions to the draft Performance Management System directive to
bring the directive in compliance with the Inspector General Act. In response, the
Commission revised the final directive to state: “This directive applies to employees of the
Office of the Inspector General to the extent not inconsistent with the Inspector General Act
and the independent status of that office.”

Starting in FY 2007, the Offices of Administration and Operations operated on a pilot
program under the revised Performance Management System directive. All other offices
including the OIG will remain under the old performance system until May 31, 2008.



Government Accountability Office (GAO)

The Inspector General Act states that each Inspector General shall give particular regard to
the activities of the Comptroller General of the United States with a view toward avoiding
duplication and ensuring effective coordination and cooperation. During this period, the



                                             14
                                           ig
                             October 2007 Semiannual Report




GAO issued six reports related to Commission activities. None of the reports contained a
recommendation for the Commission. The six reports are:


•   Customs Revenue: Customs and Border Protection Needs to Improve Workforce
    Planning and Accountability (GAO-07-529, April 12, 2007)

•   Intellectual Property: Better Data Analysis and Integration Could Help U.S.
    Customs and Border Protection Improve Border Enforcement Efforts (GAO-07-
    735, April 26, 2007)

•   Science and Technology: Information on Federal Programs and Interagency Efforts
    That Support Small Businesses Engaged in Manufacturing (GAO-07-714, May 18,
    2007)

•   Trade Adjustment Assistance: Changes Needed to Improve States' Ability to
    Provide Benefits and Services to Trade-Affected Workers (GAO-07-995T, June 14,
    2007)

•   Trade Adjustment Assistance: Industry Certification Would Likely Make More
    Workers Eligible, but Design and Implementation Challenges Exist (GAO-07-919,
    June 29, 2007)

•   Export-Import Bank: Improvements Needed in Assessment of Economic Impact
    (GAO-07-1071, September 12, 2007)




Management Assistance

Guidance on Use of Appropriated Official Reception and Representation Funds

The OIG provided guidance to the Commission on using appropriated official reception and
representation funds for food and refreshments at a “performance picnic.” There is statutory
authorization for purchase of food and refreshments for awards ceremonies, but the expense
must be necessary to carry out the purposes of an appropriation. The performance picnic
would be subject to greater scrutiny than a traditional awards ceremony (Comp Gen


                                             15
                                           ig
                             October 2007 Semiannual Report




B- 247563.4). If it can be shown that “the principal purpose” of the performance picnic is to
“publicly recognize employees' meritorious performance and allow other employees to honor
and congratulate their colleagues,” 65 Comp. Gen. 738, 740 (1986), then a performance
picnic may qualify as an awards ceremony. In that situation, Commission appropriations may
be used for food and refreshments limited to approximately $20 per person. The Commission
decided not to host a performance picnic, but plans to have a traditional awards ceremony
this fall.



Other

Records Management

Previously, Counsel prepared a new records disposition schedule for the OIG, which was
submitted to the National Archives and Records Administration for acceptance. The OIG
records disposition schedule was approved by the Archivist of the United States on July 24,
2007.

In addition, Counsel serves as the OIG representative to the Commission’s records
management revision team. Pursuant to the OIG’s report on Evaluation of the Commission’s
Record Management (OIG-AR-05-00, March 7, 2001), the Commission assembled a team to
revise the agency’s records management program.

337 Rules

Counsel serves as the OIG representative to the Commission’s 337 Rules Committee. The
Commission is in the process of implementing revisions to the agency’s rules of practice in
337 proceedings, which involve intellectual property infringement and other unfair acts.



Liaison Activities

The Assistant Inspector General for Audit participated in activities sponsored by the
Executive Council on Integrity and Efficiency (ECIE). Established by Executive Order
12805 on May 11, 1992, the ECIE is chaired by the Office of Management and Budget and,
in addition to the Inspectors General, includes representatives from the Office of

                                             16
                                            ig
                             October 2007 Semiannual Report




Personnel Management, the Office of Government Ethics, the Office of Special Counsel, and
the Federal Bureau of Investigation. The ECIE’s functions and responsibilities are to
promote integrity and efficiency and to detect and prevent fraud, waste and abuse in federal
programs.

The Assistant Inspector General for Audit is an active member of the Federal Audit
Executive Council and the Financial Statement Audit Network. The functions and
responsibilities of these groups are to anticipate potential changes and share experiences
related to auditing.

The OIG Counsel is a member of the Council of Counsels to the Inspectors General. This
group is composed of attorneys from Federal Inspectors General offices and meets monthly
to discuss topics of interest to the Inspector General community.

Also, Counsel is a member of the Inter-agency Ethics Council, which is composed of Federal
employees involved in ethics issues. Counsel provides a monthly report to the Council on
Federal Court cases involving ethics issues.

Furthermore, the OIG Counsel is a member of the Association of Directors of Investigations.
This organization consists of Assistant Inspectors General for Investigations from Federal
Inspectors General Offices, who meet quarterly to discuss new laws and other developments
that affect investigations.




                                              17
                                          ig
                            October 2007 Semiannual Report




                REPORTING REQUIREMENTS INDEX
The Inspector General Act of 1978, as amended (1988), specifies reporting requirements for
semiannual reports.
CITATION          REPORTING REQUIREMENTS                                         PAGE
Section 4(a)(2)   Recommendations concerning the impact of such legislation
                  or regulations on the economy and efficiency in the
                  administration of programs and operations administered or
                  financed by the Commission                                     14
Section 5(a)(1)   Description of significant problems, abuses, and deficiencies
                  relating to the administration of programs and operations      None
Section 5(a)(2)   Description of the recommendations for corrective action
                  made with respect to significant problems, abuses, or
                  deficiencies                                                   None
Section 5(a)(3)   Identification of each significant recommendation described
                  in previous semiannual reports on which corrective action has
                  not been completed                                             12
Section 5(a)(4)   Summary of matters referred to prosecutive authorities and
                  the prosecutions and convictions which have resulted           None
Section 5(a)(5)   Summary of each report made to the head of the
                  establishment under which information or assistance was
                  unreasonably refused                                           None
Section 5(a)(6)   Listing of each audit report                                   9
Section 5(a)(7)   Summary of each significant report                             9
Section 5(a)(8)   Statistical tables showing Audit Reports–Questioned Costs      19
Section 5(a)(9)   Statistical tables showing Audit Reports–Funds Put to Better
                  Use                                                            20
Section 5(a)(10) Summary of each audit report issued before the
                  commencement of the reporting period for which no
                  management decision has been made by the end of the
                  reporting period                                               None
Section 5(a)(11) Description and explanation of the reasons for any significant
                  revised management decisions                                   None
Section 5(a)(12) Information concerning any significant management decision
                  with which the Inspector General is in disagreement            9



                                            18
                                             ig
                             October 2007 Semiannual Report




     Table 1: AUDIT REPORTS WITH QUESTIONED COSTS

                                                                    Dollar Value

                                                      Number of Questioned Unsupported
                                                       Reports    Costs       Costs

A.    For which no management decision has been made
      by the commencement of the period                     0       0              0

B.    Which were issued during the reporting period         0       0              0

      Subtotals (A + B)                                     0       0              0

C.    For which a management decision was made during
      the reporting period

      (i) Dollar value of disallowed costs                  0       0              0

      (ii) Dollar value of costs not disallowed             0       0              0

D.    For which no management decision has been made
      by the end of the reporting period                    0       0              0

E.    Reports for which no management decision was
      made within six months of issuance                    0       0              0




                                             19
                                         ig
                            October 2007 Semiannual Report




     Table 2: AUDIT REPORTS WITH RECOMMENDATIONS
              THAT FUNDS BE PUT TO BETTER USE
                                                        Number of   Dollar
                                                         Reports    Value

A.    For which no management decision has been made
      by the commencement of the period                     0         0

B.    Which were issued during the reporting period         0         0

      Subtotals (A + B)                                     0         0

C.    For which a management decision was made during
      the reporting period

      (i) Dollar value of recommendations that were
          agreed to by management                           0         0

      (ii) Dollar value of recommendations that were
       not agreed to by management                          0         0

D.    For which no management decision has been made
      by the end of the reporting period                    0         0

E.    Reports for which no management decision was
      made within six months of issuance                    0         0




                                           20
                                            ig
                              October 2007 Semiannual Report




                                      GLOSSARY
The following definitions apply to the terms used in this report.

Questioned cost             means a cost that is questioned because of: (1) an alleged
                            violation of a provision of a law, regulation, contract, grant,
                            cooperative agreement, or other agreement or document
                            governing the expenditure of funds; (2) a finding that, at the time
                            of the audit, such cost is not supported by adequate
                            documentation; or (3) a finding that the expenditure of funds for
                            the intended purpose is unnecessary or unreasonable.

Unsupported cost            means a cost that is questioned because at the time of the audit,
                            such cost is not supported by adequate documentation.

Disallowed cost             means a questioned cost that management, in a management
                            decision, has sustained or agreed should not be charged to the
                            Government.

Recommendations that        means a recommendation that funds could be used more
funds be put to better      efficiently if management of an establishment took actions to
use                         implement and complete the recommendation, including: (1)
                            reduction in outlays; (2) deobligation of funds from programs or
                            operations; (3) withdrawal of interest subsidy costs on loans or
                            loan guarantees, insurance, or bonds; (4) costs not incurred by
                            implementing recommended improvements related to the
                            operations of the establishment, a contractor or grantee; (5)
                            avoidance of unnecessary expenditures noted in preaward reviews
                            of contract or grant agreements; or (6) any other savings which
                            are specifically identified.




                                              21
If you suspect fraud, waste, abuse, or other misconduct at the
       U.S. International Trade Commission, contact us.




                      EthicsLine

                    1-800-500-0333




          The EthicsLine is available 24 hours per day.
          The caller can remain anonymous. Federal employees
        are protected from reprisal under the provisions of the
      Whistleblower Protection Act of 1989. For more information,
       see the MSPB publication “Questions and Answers About
                         Whistleblower Appeals.”

         If you prefer, you may send written complaints to:
                      OIGHotline@usitc.gov or
                U.S. International Trade Commission
                     Office of Inspector General
                              Room 515
                          500 E Street, S.W.
                        Washington, DC 20436
